No. 20-1089

 

 

IN THE

Supreme Court of the United States

CHEVRON CORPORATION, e¢ al., PETITIONERS
Vv.

CITY OF OAKLAND, CALIFORNIA, et al.

ON PETITION FOR A WRIT OF CERTIORARI TO THE
UNITED STATES COURT OF APPEALS FOR THE NINTH CIRCUIT

BRIEF FOR THE CHAMBER OF COMMERCE OF THE
UNITED STATES OF AMERICA AS AMICUS CURIAE IN
SUPPORT OF PETITIONERS

CERTIFICATE OF COMPLIANCE

As required by Supreme Court Rule 33.1(h), I certify that the document contains
5,398 words, excluding the parts of the document that are exempted by Supreme Court
Rule 33.1(d).

I declare under penalty of perjury that the foregoing is true and correct.

Executed on March 11, 2021.

 

Colin Casey Hog:
Wilson-Epes Printing Co., Inc.
